                  The Compliance Services Collection
                Operations Function Needs to Set Specific
                    Quantifiable Goals to Ensure Its
                   Reengineering Efforts Are Effective

                                      May 2004

                       Reference Number: 2004-40-102




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    May 19, 2004


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                       Gordon C. Milbourn III
                                   Acting Deputy Inspector General for Audit

       SUBJECT:                    Final Audit Report - The Compliance Services Collection
                                   Operations Function Needs to Set Specific Quantifiable
                                   Goals to Ensure Its Reengineering Efforts Are Effective
                                   (Audit # 200340060)


       This report presents the results of our review of the Compliance Services Collection
       Operations (CSCO) function.1 The overall objective of this review was to determine
       whether management policies and the purpose, strategies, and plans of the Wage and
       Investment (W&I) Division CSCO function are effectively designed to ensure it meets
       the Internal Revenue Service’s (IRS) goal of improving voluntary compliance. We also
       determined whether the CSCO function is effectively designed to ensure it is meeting
       the requirements of the Government Performance and Results Act of 1993.2
       The W&I Division Compliance function’s long-term goals are designed to create an
       environment that encourages taxpayers to voluntarily comply with tax laws and brings
       non-compliant taxpayers into compliance in the most fair, accurate, and cost-effective
       way. The W&I Division Compliance function has a comprehensive strategic planning
       process to help ensure it manages resources and meets its long-term and annual
       performance goals. As part of the strategic planning process, W&I Division Filing and
       Payment Compliance function management establishes program priorities and annual
       performance goals for its CSCO function. Even though the CSCO function does not
       have comprehensive long-term goals, its activities directly support the long-term goals
       of the overall W&I Division Compliance function. In support of the long-term goals, the

       1
         The W&I Division Compliance function is made up of two program areas, Reporting Compliance and Filing and
       Payment Compliance. Similarly, Filing and Payment Compliance is made up of two functions. They are the CSCO
       function and the Automated Collection System function.
       2
         Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
       39 U.S.C.).
                                              2

CSCO function has begun reengineering efforts to address compliance trends and
maximize resource utilization.
The CSCO functions in both the W&I and Small Business/Self-Employed Divisions
initiated joint reengineering efforts aimed at improving and modernizing many of the
CSCO function’s manual processes. Improving the efficiency of the CSCO function will
allow the W&I Division Filing and Payment Compliance function to have a larger impact
on compliance by moving support resources to other compliance programs. However,
specific quantifiable goals have not yet been developed to enable the CSCO function to
effectively measure and drive its reengineering efforts.
We recommended that the Commissioner, W&I Division, ensure that specific
quantifiable goals are set as part of the efficiency improvements planned in the
reengineering efforts of the CSCO function. By establishing quantifiable measures,
clear time periods, and targets for its reengineering efforts that are in line with its goals
of addressing compliance trends and maximizing resource utilization, the CSCO
function can better manage its resources, improve its program efficiencies, and
measure its overall impact on voluntary compliance.
Management’s Response: IRS management was pleased that we acknowledged their
efforts and has developed an action plan for many additional improvements.
Management agreed with our recommendation that quantifiable goals are needed.
They plan to revise the current action plan by September 2004 to include quantifiable
goals with specific due dates. Management’s complete response to the draft report is
included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
      The Compliance Services Collection Operations Function Needs to Set Specific
           Quantifiable Goals to Ensure Its Reengineering Efforts Are Effective




                                                  Table of Contents


Background ............................................................................................... Page 1
The Compliance Services Collection Operations Function’s
Annual Strategic Planning Process Has Established Annual
Performance Goals.................................................................................... Page 3
The Compliance Services Collection Operations Function’s
Reengineering Efforts Need Specific Quantifiable Goals .......................... Page 5
         Recommendation 1: ....................................................................... Page 6

Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 7
Appendix II – Major Contributors to This Report........................................ Page 9
Appendix III – Report Distribution List ....................................................... Page 10
Appendix IV – Management’s Response to the Draft Report .................... Page 11
     The Compliance Services Collection Operations Function Needs to Set Specific
          Quantifiable Goals to Ensure Its Reengineering Efforts Are Effective

                                 Taxpayers are responsible for filing tax returns that report
Background
                                 the full amount of taxes owed and for paying any taxes that
                                 are due. The Internal Revenue Service’s (IRS) mission is to
                                 “provide America’s taxpayers top quality service by helping
                                 them understand and meet their tax responsibilities and by
                                 applying the tax law with integrity and fairness to all.”
                                 The IRS’ Wage and Investment (W&I) Division serves
                                 approximately 121 million taxpayers who file a Form 10401
                                 with no accompanying Schedules C,2 E,3 or F;4 no Form
                                 2106;5 and no international activity. Through its
                                 Compliance function, the W&I Division conducts
                                 examinations of individual tax returns and collects any
                                 outstanding taxes due. Similar to the IRS’ overall mission
                                 statement, the W&I Division Compliance function’s
                                 mission is to “fairly and effectively assist taxpayers in the
                                 determination and fulfillment of their tax obligations by
                                 providing accurate and consistent application of the tax law
                                 and by using a risk-based approach to exam and collection.”
                                 The collection of unpaid taxes is critical for ensuring
                                 taxpayers meet their tax responsibilities and ensuring
                                 fairness in the tax system. The Office of Management
                                 Controls has identified delinquent taxes as one of the IRS’
                                 Material Weaknesses. As of September 2002, there were
                                 approximately 4 million taxpayer accounts in the
                                 W&I Division’s inventory with unpaid taxes, penalties, and
                                 interest totaling more than $23 billion.
                                 The W&I Division Compliance function is made up of two
                                 program areas, Reporting Compliance and Filing and
                                 Payment Compliance. Similarly, Filing and Payment
                                 Compliance is made up of two functions. They are the
                                 Compliance Services Collection Operations (CSCO)
                                 function and the Automated Collection System function.
                                 Estimated resource levels for the W&I Division Filing and
                                 Payment Compliance function are $237 million for Fiscal
                                 Year (FY) 2004.


                                 1
                                   United States Individual Income Tax Return (Form 1040).
                                 2
                                   Profit or Loss From Business (Sole Proprietorship) (Schedule C).
                                 3
                                   Supplemental Income and Loss (Schedule E).
                                 4
                                   Profit or Loss From Farming (Schedule F).
                                 5
                                   Employee Business Expenses (Form 2106).
                                                                                                 Page 1
The Compliance Services Collection Operations Function Needs to Set Specific
     Quantifiable Goals to Ensure Its Reengineering Efforts Are Effective

                            The primary tasks of the CSCO function involve securing
                            delinquent returns that individuals have a legal
                            responsibility to file and securing payment for taxes,
                            penalties, and any interest owed. This review focused on
                            the W&I Division CSCO function’s activities of securing
                            payment from taxpayers for taxes, penalties, and interest.
                            The CSCO function assists taxpayers in deciding what
                            payment option to use and processes and monitors these
                            requests. CSCO function employees answer taxpayer
                            questions concerning their accounts, as well as:
                            •   Process taxpayer installment agreement requests.
                            •   Handle correspondence from taxpayers in regards to
                                balance due notices.
                            •   Monitor Offer-in-Compromise agreements and
                                installment agreements.
                            •   Resolve certain other balance due conditions on
                                taxpayers’ accounts.
                            This review of the W&I Division CSCO function followed
                            the Office of Management and Budget’s Program
                            Assessment Rating Tool (PART).6 We focused on PART
                            sections 1 and 2, which provide the information necessary to
                            determine if a program has laid a solid foundation to be
                            successful in its goals and mission.
                            In addition, the Government Performance and Results Act
                            of 1993 (GPRA)7 requires executive agencies to prepare
                            multiyear strategic plans, annual performance plans, and
                            annual performance reports on prior year accomplishments.
                            Strategic plans have six basic requirements and are the
                            starting point for setting goals and measuring progress
                            toward achieving them. This review concentrated on two
                            requirements as they related to the W&I Division CSCO
                            function. Specifically, the strategic plan must contain:
                            •   A comprehensive mission statement covering the major
                                functions and operations of the agency.

                            6
                              The PART is a series of questions designed to provide a consistent
                            approach to rating programs across the Federal Government.
                            7
                              Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered
                            sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                                                                                            Page 2
       The Compliance Services Collection Operations Function Needs to Set Specific
            Quantifiable Goals to Ensure Its Reengineering Efforts Are Effective

                                   •   General goals and objectives, including outcome-related
                                       goals and objectives, for the major functions and
                                       operations of the agency.
                                   The GPRA also has six basic requirements for annual
                                   performance plans. For this review, we concentrated on
                                   two requirements as they relate to the W&I Division CSCO
                                   function. Specifically, the performance plan must:
                                   •   Establish performance goals to define the level of
                                       performance to be achieved by a program activity.
                                   •   Express such goals in an objective, quantifiable, and
                                       measurable form.
                                   This review was performed at the W&I Division
                                   Headquarters in Atlanta, Georgia, and the CSCO function
                                   offices in Chamblee, Georgia, and Overland Park, Kansas,
                                   during the period October 2003 through March 2004. The
                                   audit was conducted in accordance with Government
                                   Auditing Standards. Detailed information on our audit
                                   objectives, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   The W&I Division Compliance function has a
The Compliance Services
                                   comprehensive strategic planning process to help ensure it
Collection Operations Function’s
                                   manages resources and meets its annual performance goals.
Annual Strategic Planning
                                   As part of the strategic planning process, W&I Division
Process Has Established Annual
                                   Filing and Payment Compliance function management
Performance Goals
                                   establishes program priorities and annual performance goals
                                   for its CSCO function. The CSCO function’s activities
                                   support the W&I Division Compliance function’s strategic
                                   goals and the mission of effectively assisting taxpayers in
                                   completing their tax obligations. They also support the IRS’
                                   goal of increasing voluntary compliance.
                                   The annual planning process begins 6 months prior to the
                                   start of the new FY. W&I Division Filing and Payment
                                   Compliance function management includes CSCO function
                                   site staffs in their planning efforts. For example, W&I
                                   Division Filing and Payment Compliance function analysts
                                   held meetings with CSCO function site management to
                                   obtain input to the planning process and assist in setting the
                                   annual performance goals. This involved reviewing
                                   historical trends and any other factors that may influence the
                                                                                            Page 3
The Compliance Services Collection Operations Function Needs to Set Specific
     Quantifiable Goals to Ensure Its Reengineering Efforts Are Effective

                            workloads at the CSCO function sites. W&I Division Filing
                            and Payment Compliance function management then sets
                            the performance goals and measures for the upcoming FY.
                            An additional meeting is held with each CSCO function
                            site’s staff to share and discuss the performance goals and
                            how they will be measured.
                            The annual performance goals and measures are intended to
                            help the CSCO function achieve its purpose and ensure
                            consistency across the W&I Division. W&I Division Filing
                            and Payment Compliance function management sets annual
                            performance goals for customer satisfaction, employee
                            satisfaction, work quality, and overage cases. For example,
                            1 of the current work quality performance goals is to
                            complete 80 percent of all case actions in the CSCO
                            function timely. In addition, specific performance goals are
                            set for each CSCO function site based on these strategic
                            planning efforts. For example, the Kansas City CSCO
                            function site has a case action timeliness goal of 99 percent,
                            the Atlanta CSCO function site has a case action timeliness
                            goal of 89 percent, the Austin, Texas, CSCO function site
                            has a case action timeliness goal of 60 percent, etc. The
                            different goals are attributable to factors such as the number
                            of employees and employee experience. These measures
                            are in line with the overall W&I Division Compliance
                            function’s long-term strategic performance goals and are
                            specific, quantifiable, and measurable.
                            To assist in achieving these long-term goals, W&I Division
                            Filing and Payment Compliance function management
                            provides specific operating guidelines for each program.
                            These guidelines cover various topics and are issued
                            periodically to remind managers and employees of their
                            mission, identify priority work, and emphasize existing and
                            new procedures for each program. These guidelines are also
                            designed to assist the CSCO function in meeting its annual
                            performance goals. For example, there are guidelines for
                            most of the programs that emphasize the importance of
                            timeliness of case actions. Even though these guidelines
                            should help the CSCO function meet its 80 percent work
                            quality timeliness goal, they also impact other annual
                            performance goals, such as improving customer satisfaction
                            and reducing the number of overage cases.

                                                                                   Page 4
       The Compliance Services Collection Operations Function Needs to Set Specific
            Quantifiable Goals to Ensure Its Reengineering Efforts Are Effective

                                   Although the CSCO function does not have comprehensive
The Compliance Services
                                   long-term goals, its activities directly support the long-term
Collection Operations Function’s
                                   goals of the W&I Division Compliance function. These
Reengineering Efforts Need
                                   long-term goals are designed to create an environment that
Specific Quantifiable Goals
                                   encourages taxpayers to voluntarily comply with tax laws
                                   and brings non-compliant taxpayers into compliance in the
                                   most fair, accurate, and cost-effective way. The W&I
                                   Division’s Concept of Operations includes outcome-focused
                                   long-term goals, such as resolving compliance issues with
                                   the first human contact and ensuring employees have access
                                   to 100 percent of the information they need. In addition to
                                   supporting these long-term goals through the annual
                                   performance goals and measures, the CSCO function has
                                   begun reengineering efforts to address compliance trends
                                   and maximize resource utilization.
                                   While the IRS as a whole has been modernizing many of its
                                   critical processes, the CSCO function has continued to rely
                                   on paper-driven and labor-intensive processes. With the
                                   increased availability of computers, many of the actions
                                   taken by IRS employees on CSCO function cases can now
                                   be done electronically. For example, IRS computer systems
                                   generate weekly listings of installment agreement cases that
                                   require the attention of CSCO function employees (e.g., a
                                   payroll deduction, a direct deposit installment agreement
                                   has been full paid, a taxpayer has not made a payment, etc.).
                                   These listings require employees to do research; prepare
                                   letters to taxpayers, employers, and banks; or take other
                                   actions on the taxpayers’ accounts. Many of these actions
                                   could be done systemically.
                                   The CSCO functions in both the W&I and Small
                                   Business/Self-Employed Divisions initiated joint
                                   reengineering efforts aimed at improving and modernizing
                                   many of the CSCO function’s manual processes. Improving
                                   the efficiency of the CSCO function will allow the W&I
                                   Division Filing and Payment Compliance function to have a
                                   larger impact on compliance by moving support resources to
                                   other compliance programs. However, specific quantifiable
                                   goals have not yet been developed to enable the CSCO
                                   function to effectively measure and drive its reengineering
                                   efforts to improve work quality and increase customer
                                   satisfaction.

                                                                                          Page 5
The Compliance Services Collection Operations Function Needs to Set Specific
     Quantifiable Goals to Ensure Its Reengineering Efforts Are Effective

                            The goals for the reengineering efforts should be
                            quantifiable and have clear time periods and targets.
                            Federal Government agencies are expected to identify high-
                            quality outcome measures and have clear time periods and
                            targets. In addition, the improvements being considered in
                            the reengineering efforts for the CSCO function need to be
                            measured. These measures should be able to determine the
                            amount of resources saved by implementing an
                            improvement. For example, these goals should be able to
                            measure the amount of resources that could be saved by
                            reducing the amount of manual work needed for employees
                            to research and take a specific action on a taxpayer’s
                            account.
                            The W&I Division CSCO function is an integral part of the
                            W&I Division Compliance program. Its purpose is clear
                            and addresses specific needs aligned with the goals stated in
                            the IRS and W&I Division Compliance function mission
                            statements. By establishing quantifiable measures, clear
                            time periods, and targets for its reengineering efforts that are
                            in line with its goals of addressing compliance trends and
                            maximizing resource utilization, the CSCO function can
                            better manage its resources, improve its program
                            efficiencies, and determine its overall impact on voluntary
                            compliance.

                            Recommendation

                            1. The Commissioner, W&I Division, should ensure that
                               specific quantifiable goals are set as part of the
                               efficiency improvements planned in the reengineering
                               efforts of the CSCO function.
                            Management’s Response: Management agreed with our
                            recommendation. They plan to revise the current action
                            plan by September 2004 to include quantifiable goals with
                            specific due dates.




                                                                                     Page 6
      The Compliance Services Collection Operations Function Needs to Set Specific
           Quantifiable Goals to Ensure Its Reengineering Efforts Are Effective

                                                                                             Appendix I


                        Detailed Objectives, Scope, and Methodology

The overall objective of our review was to determine whether management policies and the
purpose, strategies, and plans of the Wage and Investment (W&I) Division Compliance Services
Collection Operations (CSCO) function1 are effectively designed to ensure it meets the Internal
Revenue Service’s (IRS) goal of improving voluntary compliance. We also determined whether
the CSCO function is effectively designed to ensure it is meeting the requirements of the
Government Performance and Results Act of 1993.2 To accomplish our objectives, we:
I.      Determined whether the design and purpose of the CSCO function is clear and properly
        aligned with the mission of the W&I Division and the IRS.
        A. Discussed research activities concerning the CSCO function with personnel in the
           IRS Office of Program Evaluation and Risk Analysis and the W&I Division Research
           function.
        B. Determined whether the CSCO function’s purpose is clear and addresses a specific
           interest, problem, or need by:
            1. Researching the W&I Division Filing and Payment Compliance function website
               to identify the CSCO function’s mission.
            2. Interviewing the Director, Filing and Payment Compliance, and appropriate
               CSCO function managers to determine their interpretations of the CSCO
               function’s goals.
        C. Evaluated whether the CSCO function’s mission is logical and likely to yield the
           intended outcomes.
II.     Determined whether the CSCO function has set valid annual and long-term goals that
        focus on outcomes and reflect its purpose.
        A. Reviewed annual and long-term strategic plans (W&I Division Strategic Assessments
           for Fiscal Years 2004 and 2005) for the CSCO function and interviewed CSCO
           function personnel to identify its goals.




1
  The W&I Division Compliance function is made up of two program areas, Reporting Compliance and Filing and
Payment Compliance. Similarly, Filing and Payment Compliance is made up of two functions. They are the CSCO
function and the Automated Collection System function.
2
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                   Page 7
The Compliance Services Collection Operations Function Needs to Set Specific
     Quantifiable Goals to Ensure Its Reengineering Efforts Are Effective

  B. Evaluated long-term goals by reviewing the W&I Division Compliance function’s
     Concept of Operations and the CSCO function’s reengineering efforts documentation
     and discussed these goals with CSCO function personnel and W&I Division Filing
     and Payment Compliance management.
  C. Evaluated short-term goals (CSCO function Operating Guidelines and balanced
     measures) and discussed these goals with CSCO function personnel and W&I
     Division Filing and Payment Compliance function management.
  D. Conducted walkthroughs of the CSCO function operations at Chamblee, Georgia, and
     Overland Park, Kansas, to identify how balance due accounts are processed and how
     these processes relate to the overall CSCO function mission.




                                                                               Page 8
    The Compliance Services Collection Operations Function Needs to Set Specific
         Quantifiable Goals to Ensure Its Reengineering Efforts Are Effective

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary Baker, Director
Bryce Kisler, Audit Manager
Alan Lund, Senior Auditor
Ronnie Summers, Senior Auditor
Nelva Blassingame, Auditor




                                                                                         Page 9
    The Compliance Services Collection Operations Function Needs to Set Specific
         Quantifiable Goals to Ensure Its Reengineering Efforts Are Effective

                                                                           Appendix III


                              Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance SE:W:CP
Director, Filing and Payment Compliance SE:W:CP:FPC
Director, Strategy and Finance SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA




                                                                                Page 10
The Compliance Services Collection Operations Function Needs to Set Specific
     Quantifiable Goals to Ensure Its Reengineering Efforts Are Effective

                                                                    Appendix IV


               Management’s Response to the Draft Report




                                                                          Page 11
The Compliance Services Collection Operations Function Needs to Set Specific
     Quantifiable Goals to Ensure Its Reengineering Efforts Are Effective




                                                                          Page 12
